IN THE
Supreme Court of the United States

CYNTHIA HUDSON,
Petitioner
vs.
BOBBY LUMPKIN, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent

CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29.5(a), I hereby certify that true copies of the
Petition for a Writ of Certiorari, Appendix, and Petitioner’s Motion for Leave to
Proceed In Forma Pauperis, were sent to counsel for Respondent by electronic mail
on January 7, 2021. The parties have consented to electronic service.
Kyle D. Hawkins
Solicitor General of Texas
P.O. Box 12548
Capitol Station
Austin, TX 78711-2548
(512) 936-1700
Kyle.Hawkins@oag.texas.gov
/s/

Gregory Sherwood
Counsel of Record for
Petitioner Cynthia Hudson

